<html>
<title> - AN OVERVIEW OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION BUDGET FOR FISCAL YEAR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                AN OVERVIEW OF THE NATIONAL AERONAUTICS
                    AND SPACE ADMINISTRATION BUDGET
                          FOR FISCAL YEAR 2018

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2017

                               __________

                           Serial No. 115-16

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov




                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-233PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas


















                            C O N T E N T S

                              June 8, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

Mr. Robert M. Lightfoot, Jr., Acting Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    16
    Written Statement............................................    19

Discussion.......................................................    30

             Appendix I: Answers to Post-Hearing Questions

Mr. Robert M. Lightfoot, Jr., Acting Administrator, National 
  Aeronautics and Space Administration NASA).....................    58

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    76
 
                AN OVERVIEW OF THE NATIONAL AERONAUTICS
                    AND SPACE ADMINISTRATION BUDGET
                          FOR FISCAL YEAR 2018

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                  House of Representatives,
                             Subcommittee on Space,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittee on Space will come to 
order. And without objection, the Chair is authorized to 
declare recesses of the Subcommittee at any time.
    Welcome to today's haring entitled ``An Overview of the 
National Aeronautics and Space Administration Budget for Fiscal 
Year 2018.'' I now recognize myself for five minutes for an 
opening statement.
    NASA is a critical national investment in our future. Our 
nation has never faced a more challenging, relevant, or 
promising frontier than the vast reaches of outer space. I am 
very proud that this Committee clearly recognizes and 
demonstrates that U.S. leadership in space is a bipartisan 
priority.
    The recent passage and enactment of the 2017 NASA 
Transition Authorization Act this March is concrete proof of 
the bipartisan and bicameral commitment to NASA. This budget 
reflects the Administration's commitment to the continuity of 
purpose described in the recent authorization. Honoring our 
commitments in space and maintaining a balanced portfolio are 
the surest ways for us to enjoy the full benefits of our space 
investments.
    The numbers in this request are lower than the amounts in 
the enacted budget, which causes some concern. However, the 
preliminary budget blueprint was released before Congressional 
appropriations. Therefore, the lower request does not 
necessarily reflect a reduction in Administration support for 
NASA. In fact, the current request is in line with recent 
levels appropriated by Congress. This goes a long way to fixing 
problems that have plagued NASA programs over the last eight 
years. This budget request is refreshing in that it does not 
propose slashing priority programs year after year. This will 
allow NASA managers to execute programs in an efficient manner.
    I want to reiterate the Committee's commitment to NASA's 
long-term goals, as described in law. Mars remains the first 
interplanetary destination for humanity. NASA is encouraged to 
carry out any necessary intermediate missions, particularly to 
the Moon, provided that those missions advance future 
interplanetary exploration.
    Closer to home, the future of the International Space 
Station is a top concern. Currently, the ISS will operate until 
2024, but the role of the ISS beyond 2024 must be addressed 
soon. Similarly, I am also interested in understanding what 
NASA's plans are for future space suit work.
    Turning to NASA's scientific exploration, this budget 
request restores balance across NASA's science portfolio and 
supports critical work across the entire science directorate. 
Work continues on the James Webb Space Telescope, which I am 
very proud to say is currently in our home district at the 
Johnson Space Center for testing where I was yesterday, along 
with Acting Administrator Lightfoot and our Chairman of the 
main Science Committee, I'm very proud to say, along with the 
Vice President of the United States, meeting our 12 new 
astronauts of class 2017.
    But back to the budget. The budget supports a range of 
small, medium, and large science missions, including the 
flagship Europa Clipper and Mars 2020 rover missions. During 
the Obama Administration, the pipeline for outer-planet 
missions was allowed to run dry. This budget returns support 
for a robust planetary exploration program, which is a national 
priority. U.S. leadership in space science is critical in part 
because it supports so much of NASA's broader mission.
    Under this budget, NASA Aeronautics will continue its work 
on innovative technologies, including a low boom supersonic 
flight demonstrator and hypersonic flight. These programs 
continue to benefit our civil and military aeronautics efforts.
    NASA's work in the Space Technology Mission Directorate 
will be critical in future space exploration. Work on space 
technologies like laser communication, in-space propulsion, and 
power systems will allow human exploration to complement the 
robotic exploration of Mars and other celestial bodies.
    NASA has many exciting projects and missions across its 
portfolio. Indeed, NASA may be on the threshold of one of the 
greatest inflection points in the history of space exploration. 
Soon, SLS, Orion, Dragon 2, and Starliner vehicles will take 
their first flights. The James Webb Space Telescope will see 
its first light. Human presence in low-Earth orbit is maturing, 
and the ISS will begin evolving to the next phase of its life. 
And soon, NASA will begin construction of the Deep Space 
Gateway, the first permanent human outpost beyond low-Earth 
orbit. Of course, this era of excitement will also be a time of 
high risk. But with Congressional and Administration budgetary 
and political support, the next decade could very well mark a 
new golden age of space exploration. And I want to thank Acting 
Administrator Lightfoot for his testimony and look forward to 
his discussion.
    [The prepared statement of Chairman Babin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Babin. And now, I'd like to recognize the Ranking 
Member, the gentleman from California, Mr. Bera, for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman.
    Good morning. Welcome to Acting Administrator Lightfoot, 
and thank you for your dedicated service to NASA over the many 
years.
    The fiscal year 2018 proposal for NASA is $19.1 billion, a 
nearly three percent reduction from last year's fiscal year 
budget. And, in the context of the overall federal budget, you 
know, $19 billion does suggest a recognition of the importance 
of NASA and, you know, both from the Administration perspective 
as well as ours. But there are a few things that give me pause 
when I look at the detail of the budget.
    Part of our goal--being a child of the space race--is 
education and inspiring that next generation, and one thing 
that I do worry about is the cut in the education budget, and I 
certainly want to hear from Administrator Lightfoot how we 
might go about continuing to inspire that next generation, our 
children, and that next generation of astronauts, especially in 
such a vibrant, exciting time with regards to space, when we 
think about the multiple missions, when we think about human 
space travel potentially to Mars and back again, when we think 
about the existential questions like the search for life, are 
we alone, and what does that look like the rapidity by which we 
are discovering planets that potentially could house life.
    The Chairman talked about the missions going to deeper 
space. I thought the second half of the 20th century was a 
super exciting time for space, but I truly believe the coming 
decades are going to be much more exciting. You're seeing the 
rapid entry of the private sector into space, the 
commercialization of space, the amount of venture money that's 
going into space. And I truly believe that this has the ability 
of inspiring the next generation of scientists, of engineers, 
et cetera, as they see that, and I want to make sure we 
continue that.
    There is about a nine percent cut to NASA's exploration 
budget. That does give me a little bit of pause as well, again, 
at a time where I think we've got to continue U.S. leadership 
in space. Space in the 21st century will be an international 
endeavor, as other countries get engaged. That said, I still 
think U.S. leadership and American ingenuity with regards to 
space is going to be incredibly important.
    The last thing is, as we look at the multiple missions, 
what we discover in space also helps us understand our own 
planet much better and Earth, and I do want to make sure that 
the Earth sciences mission is also protected. NASA obviously 
has a critical role in the Earth sciences mission, and I 
certainly want to hear from the Acting Administrator.
    That said, NASA is a source for many of us of national 
pride. It is certainly something that, you know, we think leads 
the way. And I think NASA also, as we look at international 
diplomacy, how we work with other countries around the world, 
space, and the International Space Station is a model example 
of how the world can work together, especially as these 
discoveries are not just for the United States, they're for all 
of humanity.
    So with that, I look forward to hearing from Mr. Lightfoot, 
and I'll yield back.
    [The prepared statement of Mr. Bera follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Babin. Thank you, Mr. Bera.
    I now recognize the Chairman of our Full Committee, Mr. 
Smith from Texas.
    Chairman Smith. Thank you, Mr. Chairman. And welcome, 
Acting Administrator Lightfoot. As Chairman Babin said a minute 
ago, it was good to see you at Johnson Space Center yesterday. 
I'm still amazed that you got up here in time to be at this 
hearing today.
    Mr. Chairman, this Committee has consistently demonstrated 
that U.S. leadership in space is a bipartisan priority. The 
2017 NASA Transition Authorization Act, signed into law in 
March by President Trump, is a clear demonstration of that. A 
key concept in the current NASA Authorization is continuity of 
purpose. Over the years, erratic direction and changes in 
mission have repeatedly led our space exploration effort 
astray.
    The fiscal year 2018 NASA budget shows that Congress and 
the Administration both support a consistent, focused space 
program. The amounts requested in this budget for not only the 
Space Launch System and Orion crew vehicle and the commercial 
crew and cargo programs reflect this. These requests are much 
closer to past appropriations and are realistic and reasonable, 
providing an increased level of stability and continuity of 
purpose for two of NASA's main initiatives.
    This year's Authorization Act also declares that NASA's 
goals include extending human presence throughout the solar 
system. Accordingly, NASA continues to focus on Mars as its 
first interplanetary destination for human exploration. NASA 
should conduct missions to intermediate destinations on the way 
to Mars, such as the Moon, so long as those activities support 
subsequent journeys to Mars and beyond.
    Previews of NASA's Deep Space Gateway program architecture 
have given us a peek at NASA's plans. We look forward to 
reviewing the Human Exploration Roadmap on how NASA plans to 
pursue its human space exploration goals in coming decades.
    It's good to see that the NASA budget request ends the 
previous Administration's ill-conceived Asteroid Mission. The 
2017 NASA Transition Authorization Act clearly reflects the 
concerns of both Congress and NASA's Advisory Council about the 
utility and cost-effectiveness of that mission. Instead, other 
and more needed technologies will be developed under different 
programs.
    Likewise, within the Science Mission Directorate, the 
budget promotes a much better balance among NASA's many 
scientific endeavors, especially for planetary science. And it 
starts to reverse the significant growth in earth science. The 
Obama Administration's fiscal year 2017 earth science request 
was 42 percent higher than its request for planetary science, 
and that's 75 percent higher than the amount requested for 
earth science in 2007. As a reminder, there are many other 
federal agencies involved in earth science research, but only 
one agency that promotes space exploration. This budget 
reflects the idea that while NASA can continue to develop 
state-of-the-art Earth-sensing programs, it is not a piggy bank 
for funding climate activities already addressed elsewhere in 
the Federal Government.
    The James Webb Space Telescope, which I saw under 
construction yesterday at Johnson Space Center, continues on 
budget and on schedule after NASA and Congress worked to 
correct for overruns and delays. We continue to expect a launch 
in October next year. NASA science supports other activities, 
too. The Transitioning Exoplanet Survey Satellite and the Wide 
Field Infrared Space Telescope will increase our understanding 
of exoplanets.
    And I want to emphasize that the recent authorization bill 
directs NASA to, quote ``search for life's origin, evolution, 
distribution, and future in the universe.'' The James Webb 
Telescope, Wide Field Telescope, and Exoplanet Survey Satellite 
will certainly advance this priority.
    Congress has the responsibility for setting the top-level 
direction and missions for NASA and has done so with the 2017 
NASA Transition Authorization Act. NASA is responsible for 
providing a compelling plan and executing it. Now that we have 
received the budget request, it is Congress' next 
responsibility to ensure NASA's budget is prioritized and 
funded. Of all the non-defense, non-security agencies in the 
Federal Government, NASA has received the most favorable 
proposed budget. And I am sure that this Committee will 
continue to support American leadership in space.
    Thank you again, Mr. Chairman, and yield back.
    [The prepared statement of Chairman Smith follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Babin. Thank you, Mr. Chairman.
    The Ranking Member of the full Committee is not here yet, 
so we're going to go on to introductions of our guests. Mr. 
Robert M. Lightfoot, Jr., our witness today, Acting 
Administrator of the National Aeronautics and Space 
Administration. His permanent title is Associate Administrator 
for NASA.
    Before serving as Acting Administrator, Mr. Lightfoot was 
Director of NASA's Marshall Space Flight Center in Huntsville, 
Alabama, where he managed propulsion, scientific, and space 
transportation activities.
    From 2003 to 2005, he served as Assistant Associate 
Administrator for the Space Shuttle Program at NASA's 
headquarters right here in Washington where he oversaw 
technical and budgetary oversight of the annual budget and 
initial transition and retirement efforts for the space shuttle 
infrastructure.
    From 2005 to 2007, Mr. Lightfoot was responsible for 
overseeing the manufacture, assembly, and operation of the 
primary shuttle propulsion elements such as the main engines, 
solid rocket boosters, and reusable solid rocket motors.
    Mr. Lightfoot received a bachelor's degree in mechanical 
engineering from the University of Alabama. He was also named 
distinguished departmental fellow from the University's 
Department of Mechanical Engineering in 2007 and was selected 
as a University of Alabama College of Engineering fellow in 
2009.
    And I would like to recognize Mr. Lightfoot for five 
minutes to present his testimony.

             TESTIMONY OF ROBERT M. LIGHTFOOT, JR.,

                     ACTING ADMINISTRATOR,

                      NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Lightfoot. All right. Thank you, Mr. Chairman. It's 
great to be here. I want to thank you and Chairman Smith for 
being in Houston yesterday. It was a very exciting event, and 
we appreciate your support----
    Chairman Babin. Absolutely.
    Mr. Lightfoot. --the team. Mr. Chairman and Members of the 
Committee, I'm pleased to have the opportunity to discuss 
NASA's fiscal year 2018 budget request. We appreciate the 
Committee's support and especially your bipartisan commitment 
to the constancy of purpose for NASA. The Transition 
Authorization Act for 2017 and the Consolidated Appropriations 
Act of 2017 are concrete contributions to this vital 
continuity, and we appreciate the Committee's hard work on 
NASA's behalf.
    NASA's historic and enduring purpose can be summarized in 
three major strategic thrusts: discover, explore, and develop. 
These correspond to our missions of scientific discovery, 
missions of exploration, and missions of new technology 
development in aeronautics and space systems. NASA is focused 
on these missions, but we never lose sight of the other 
contributions that our unique achievements make possible. 
NASA's missions inspire the next generation. They inject 
innovation into the national economy, they provide critical 
infrastructure, information to national challenges, and they 
support global engagement and international leadership.
    The fiscal year 2018 request of $19.1 billion supports a 
vigorous program that leads the world in space and aeronautics. 
And while we had to make some difficult decisions in regard to 
earth science and education, this remains a great budget for 
NASA.
    With this budget, we will advance U.S. global leadership in 
aeronautics by developing and transferring key enabling 
technologies. In fiscal year 2018 we'll award a contract for 
detailed aircraft design, build, and validation of a low boom 
flight demonstrator. This low boom X-plane will demonstrate 
quiet overland supersonic flight, opening a new market to U.S. 
industry.
    NASA will also use 20 spaceborne missions to study the 
Earth as a system. The request supports two new missions by the 
end of 2018, the GRACE Follow-On mission, which will track 
water across the planet by precisely measuring Earth's 
gravitational field; and ICESat-2, which will measure ice 
sheets, clouds, and vegetation canopy heights. We supply earth 
science data for weather forecasting, farming, water 
management, disaster response, and even disease early warning.
    In September, Cassini will make a final series of 22 daring 
dives through the 1,500-mile-wide gap between the planet and 
its rings as part of its grand finale end-of-mission maneuvers. 
The OSIRIS-REx mission will conduct a search for elusive 
objects known as Earth trojan asteroids on its journey to the 
asteroid Bennu.
    We'll also launch Mars InSight lander in 2018 to study the 
interior structure of Mars, and we're on track to launch the 
next Mars rover mission in 2020.
    James Webb continues on schedule for its 2018 launch. That 
will be our next giant leap forward in our quest to understand 
the universe and our origins.
    NASA's Transiting Exoplanet Survey Satellite or TESS will 
launch in 2018 as well, extending the pioneering discoveries of 
the Kepler Space Telescope.
    In heliophysics, we'll also launch the recently named 
Parker Solar Probe on a mission to fly closer to the sun than 
any previous mission. That'll join 18 other missions that are 
dedicated to studying our closest star.
    It's vital that NASA continues the investment in 
transformative space technology. In 2018, we'll continue to 
work in deep-space optical com, high-powered solar propulsion 
technologies, and advanced materials.
    The International Space Station, our first step on the road 
to deep space exploration, is delivering the knowledge and 
technology we need to keep astronauts safe, healthy, and 
productive on deep space missions of increasing duration.
    Working with our commercial crew partners, NASA plans on 
returning crew launch capability to American soil in 2018. 
We'll also continue the development of the SLS rocket, the 
Orion crew capsule and the ground systems, and the technologies 
and research needed to support and deploy critical life-support 
and habitation capabilities leading to crewed missions beyond 
the Earth-moon system.
    In 2019, we'll plan a launch of the un-crewed Exploration 
Mission 1 using the new heavy lift launch vehicle SLS and Orion 
on a mission to lunar orbit. Shortly after that, no later than 
2023, we'll have a crewed mission of EM-2.
    With your continued support, we look forward to extending 
human presence into deep space, exploring potential habitable 
environments around the solar system, and deepening our 
understanding of our home planet. We look forward to pushing 
our observations of the universe back to the time when the 
first stars were forming and opening the space frontier. While 
the future benefits of discovery are always difficult to 
predict, we are confident that the resources we are requesting 
represent an investment that will deliver significant return to 
the nation.
    Mr. Chairman, I'd be pleased to respond to your questions 
and those of other members of the Committee. Thank you.
    [The prepared statement of Mr. Lightfoot follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Babin. Thank you, Mr. Lightfoot. I appreciate it. 
Thank you.
    The Chair recognizes himself for five minutes for 
questioning. And again, thank you for being here. We really 
appreciate you.
    The GAO recently found that both of the commercial crew 
contractors are likely to be delayed into 2018 into 2019. Under 
normal contracting mechanisms, there would be a penalty 
associated with not meeting schedules. My understanding is that 
under these contracts the penalty is simply not receiving 
payment until the work is completed.
    GAO also recently found that the SLS and Orion programs 
would also face schedule delays. Conversely, under those 
contracts, my understanding is that the contractors could face 
the loss of award fees. Can you explain which model provides 
the government the best tools to procure a system or service in 
the most timely and least costly manner?
    Mr. Lightfoot. Yes, sir, great question. We have--you know, 
both groups continue to make great progress, and when we did 
the commercial crew program, we tried a new acquisition 
strategy approach with fixed-price contracts where, when they 
slip, we do simply just pay when they make their milestones. We 
have had success with both processes. If you look at TDRS, 
which we fly today, it was a fixed-price contract as well.
    And what we do internally in the agency is we make an 
assessment from an acquisition perspective which way is the 
best way for us depending on the amount of development. If 
there's a lot of development, we figured--we feel like cost-
plus is the way to go because we may not have the perfect 
requirements nailed down. We felt pretty confident in our 
requirements when we went to the commercial crew guys and we 
felt we could go fixed-price.
    So that's really how we assessed it. We have what's called 
an acquisitions strategy process that allows us to make an 
assessment which way we're going to go as we move forward. So 
that's how we did this one, and we think both are options that 
we should always consider when we do this.
    Chairman Babin. Yes, okay. Thank you. And then regarding 
science, the decadal process plays a significant role in how 
NASA prioritizes and how Congress funds scientific missions. 
This budget proposes cancellation of several earth science 
missions that were never recommended by the decadal process, 
specifically, PACE, OCO-3, RBI, and DSCOVR, EPIC, NISTAR, and 
NISTAR instruments.
    With the next earth science decadal survey forthcoming, the 
request also rightly proposes cancellation of the CLARREO 
Pathfinder. CLARREO could potentially cost in excess of $5 
billion, and it is in the early stages of development. 
Decisions about the mission would be well served by more 
information from the community. All of this begs the question, 
why are we funding missions that were not prioritized by the 
decadal process?
    Mr. Lightfoot. Well, Mr. Chairman, we have always looked at 
the decadal process as our guiding principle from that 
perspective, but there's other things we can do outside of the 
decadals. When we got the budget for this year for the 2018 
budget, we went back to our principles of decadals and we 
said--we used kind of a three-tier process. We said what's in 
the decadals, what's in the--what are the--is this the best 
science value for return for what we're doing, and then how are 
they performing? So some of the issues like RBI we were having 
some performance issues associated with that. And so that's how 
we came up with a list of ones that we proposed coming back to 
you guys for the fiscal year 2018 budget.
    Chairman Babin. Okay. And Mars is often referred to as a 
horizon goal for human space exploration. However, if we are 
careless in our planning, Mars exploration could become 
unsustainable, perhaps even a dead-end. So how would the Deep 
Space Gateway make exploration to Mars more sustainable and 
help NASA to achieve its mission of extending human presence 
throughout the solar system?
    Mr. Lightfoot. We believe that what we need is an 
infrastructure throughout--from low-Earth orbit to get to Mars 
we're going to need some infrastructure along the way. And the 
Gateway concept, which is just a concept at this point, 
actually provides us kind of a steppingstone approach, and we 
figure that's the better way to do it if you go from a 
stepping--if you take it one step at a time, we think we can 
actually get there in a more efficient way.
    It also gives an opportunity for public-private 
partnerships to come into play, and we think there's a good mix 
that we can do. And if you do it in the steppingstone way, 
you're not committing to the final answer first. You're doing 
it in a pretty measured way that I think is consistent with the 
budgets that we have.
    Chairman Babin. And one last question. The Administration 
has expressed interest in public-private partnerships. When 
used appropriately, funded Space Act agreements are very 
useful--a useful tool to advance partnerships. NASA's current 
policy limits the use of funded Space Act agreements to cases 
where contracts, grants, and cooperative research and 
development agreements cannot achieve agency objectives. This 
ensures that there is proper oversight of the use of funded 
Space Act agreements. Does NASA intend to keep this policy in 
place?
    Mr. Lightfoot. Yes, sir. We think we got--we use the entire 
suite of tools we have for acquisition, and I think we can--
we'll keep that policy in place.
    Chairman Babin. Okay. Thank you very much.
    And now, I'd like to recognize the Ranking Member of our 
Subcommittee, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    Just continuing on Chairman Babin's line of questioning, 
with Mars as a longer goal and thinking about that and looking 
at the budget for Space Launch--for SLS and the Orion crew 
vehicle--and it does look like it comes in for Orion about $164 
million under fiscal year 2017 budget, as well as $212 million 
for SLS relative to the fiscal year 2017. How does this impact 
our ability to get to Mars if our goal is still, as many of us 
on this Committee have said, by 2033? So----
    Mr. Lightfoot. Yes, I think the budget we've proposed has 
got the systems we need in 2018 to keep making the progress we 
think we need to make on all the different systems we have. 
Clearly, we think we're going to need something commensurate 
with inflationary growth or economic growth going forward as we 
move forward, but for '18 for this budget, we think we'll make 
the progress we need to make on all the systems to get us to 
our goals of the Moon and Mars down the road. So----
    Mr. Bera. And also, you know, there's a proposed 
termination of the Asteroid Redirect Mission. Part of the 
thought there was also when that mission was in place was the 
next generation of propulsion systems, particularly solar 
electric propulsion. I'd be curious, with the proposed 
termination of that mission, how's that going to impact solar 
electric propulsion?
    Mr. Lightfoot. Yes, this budget keeps solar electric 
propulsion in there. One of the things that we discovered in 
the work on the Asteroid Redirect Mission is that's a pretty 
big enabler for us on some of the things we can do, especially 
in the infrastructure we're going to need around the Moon.
    Mr. Bera. Right.
    Mr. Lightfoot. So we're proposing to keep that and we'll 
continue developing that in space technology and use it as part 
of something like a power propulsion bus that we'll use around 
the Moon as the core for some of the infrastructure we need.
    Mr. Bera. So you'll continue to work in that direction----
    Mr. Lightfoot. Yes, sir.
    Mr. Bera. --if you've got the resources? And last thing in 
my opening comments I talked about the importance of inspiring 
the next generation of astronauts, our kids and grandkids. How 
does NASA, you know, again with the current budget that's being 
proposed for the coming fiscal year propose to continue its 
education mission?
    Mr. Lightfoot. Yes, so we've been working on that for a 
while with--internal to NASA in terms of the better way to 
actually deploy our educational activities that we do in a more 
efficient way. So that was one thing we were working before 
this came out.
    The other thing that we truly believe is that our entire 
budget is for inspiring the next generation. I mean, if you 
think about yesterday's event with the astronaut candidates, I 
mean, it was just really awesome to see the excitement around 
that and excitement it generated. The emails I've got today 
from just people I know, public I know that they said this is 
really neat. And that wasn't an education event; that was us 
talking about our missions. And I think our missions are what 
inspire people, and I think as long as we're doing the missions 
we're doing, we'll continue to inspire the next generation.
    Mr. Bera. And do you feel within the current budget you'll 
have the ability to go out to schools and continue to do some 
of that direct education stuff?
    Mr. Lightfoot. Yes, what we've done is we've got a baseline 
services activity we're doing inside the agency to sync--better 
sync up our education activities with our outreach activities 
so make sure that they're better aligned we go out, and we 
absolutely think we'll continue those activities.
    Mr. Bera. Okay. And then also, obviously, these are 
multiyear missions, multiyear strategic planning as we're 
looking at longer-term goals. You know, the Chairman brought up 
the International Space Station and we've committed to funding 
through 2024. Obviously, that's one thing we've certainly been 
meeting with folks, chatting with folks at NASA, as well as 
others, the potential possibility as more commercial entities 
get into space, as other institutions see this valuable asset 
and the academic sector and others, the potential of life after 
2024. And I'd be curious in NASA's long-term planning how are 
you guys thinking about the ISS in longer-term?
    Mr. Lightfoot. Well, as you said, we're approved till 
2024----
    Mr. Bera. Right.
    Mr. Lightfoot. --and what we're working on now is what are 
the transition indicators as we would call them? There's very 
technical reasons you can go into, science, technologies we can 
do, but there's also the question of that is a destination----
    Mr. Bera. Right.
    Mr. Lightfoot. --for a lot of folks, you know, other than 
just us, and it's an enabler frankly of the commercial 
industry. So we're looking at that now. We're not planning on 
going past 2024, but we're actually talking about what would it 
do. And I think as a policy for the United States, we have to 
decide whether, you know, it's a symbol of our leadership up 
there, too, right?
    Mr. Bera. Well, now's the time to do that planning, right? 
So we don't----
    Mr. Lightfoot. Yes, that's what we do.
    Mr. Bera. --start that conversation in 2023.
    Mr. Lightfoot. Yes, agreed.
    Mr. Bera. Right. Thanks. I'll yield back.
    Chairman Babin. Thank you, Mr. Bera.
    I now recognize the Chairman of the full Committee, Mr. 
Smith from Texas.
    Chairman Smith. Okay. Thank you, Mr. Chairman.
    Mr. Lightfoot, I've already commented on the budget, so let 
me ask you some general questions, but let me preface them by 
pointing out the obvious, and that is the American people are 
absolutely fascinated by space. They're fascinated by space 
exploration, they are fascinated by the night sky. I think 
there is a real good reason why the Air and Space Museum here 
in DC. is the most popular museum in America. It's not an art 
museum in California, it's not a history museum even in D.C., 
it's the Air and Space Museum.
    And we had an indication of interest in our space program 
yesterday when we were at Johnson Space Center, and we had 
twice as many people as ever before apply to be an astronaut. 
And it is absolutely incredible to me we had 18,000 
applications for 12 spots. And that comes out to I think one to 
every 1,500 applications, probably the hardest job to get in 
America without any question, but on the other hand, they are 
our real heroes today and will be tomorrow.
    When we think about space exploration and how inspired the 
American people are by it, another example would be the 
discovery of what, in just the last 12 years of 3,500 
exoplanets, several dozen Earthlike planets, and every time 
there's any kind of discovery in space, it makes the front page 
of the papers, it leads the news at night, and so forth.
    But my general question is this: What do you think are the 
most exciting things happening in space today? What is going to 
seize the imagination of the sixth-grader walking to school or 
the adult in their homes?
    Mr. Lightfoot. I think you kind of nailed it with your 
preface there. To me I think there's--anything that we do with 
humans is one piece of that. When you can actually see another 
human doing something in space, it really is----
    Chairman Smith. Yes.
    Mr. Lightfoot. --in our DNA to explore and I think people 
feel part of that. But on the science side and the aeronautic 
side if you look at the discoveries we're making from the 
science standpoint, when we found TRAPPIST-1, the seven 
exoplanets--you know, potential exoplanets around the star, 
four billion hits on our social media, four billion in all our 
different platforms that we have. That's incredible. I mean, 
that's the kind of region interest that people have in what 
we're doing. And I think--again, I think it's just the fact 
that people are--they're inspired by anything we discover, 
right, because you're challenging things that we thought we 
knew. And I think that's what--so as long as we're doing the 
good missions and the big missions like we're talking about, I 
think the inspiration will be there.
    Chairman Smith. Okay, good. Let me ask you a more specific 
question and a leading question, and it's a subject that I'm 
fascinated by. And that is that sometime what may be in the 
next five to ten years we're going to have the capability of 
analyzing the spectra of Earthlike planets and being able to 
determine, for example, whether there is methane or oxygen in 
the atmosphere, and if so, that is very strong evidence that 
there is something alive on the surface. It may be vegetative, 
it may be sentient. we don't know. But what do you think we 
might discover over the next few years that will possibly be 
the biggest space news in a century?
    Mr. Lightfoot. Wow. From my crystal ball perspective, I 
think--really, I don't know what that discovery will be. You 
know, I don't think ten years ago I could've told you we'd have 
had 3,500 exoplanets----
    Chairman Smith. Yes.
    Mr. Lightfoot. --right? But I think what we're doing is 
we're working on the systems that allow us to make those 
civilization-level discoveries, the kind that really impact us 
as humanity. If you look at WFIRST, the Widefield telescope 
we're going to put up, we're working that to have a starshade 
that goes front of it so that we can actually see even more----
    Chairman Smith. Yes.
    Mr. Lightfoot. --of these potential planets throughout the 
universe. That's exciting. And then we can make some plans, 
right? You know, not in my lifetime but we can make some plans 
on how do we reach out to those locations. And so I think if we 
could--to me, you know, our goal at the agency and the science 
community has always been is their life out there, and if so, 
what is it and where is that, right?
    Chairman Smith. Exactly.
    Mr. Lightfoot. If we find that, that's a civilization-level 
impact I think.
    Chairman Smith. Yes, I agree completely. You also make a 
good point, and that is it's hard to predict. And sometimes our 
imaginations can't even conceive of what might happen in the 
future. A good example of that would be of course that it was 
only 50 years before the Wright brothers flying the sort of 
contraption 60 seconds about 30 feet above the ground, 50 years 
between that and putting six astronauts walking on the surface 
of the Moon, so we really don't know what the future holds. We 
only know what will be fascinating and inspiring.
    Mr. Lightfoot. And the research we're doing on the 
International Space Station, you never--that could----
    Chairman Smith. Same thing.
    Mr. Lightfoot. If we find something, we just--you know, 
that's what we're working there for.
    Chairman Smith. Right. Thank you, Mr. Lightfoot.
    Thank you, Mr. Chairman.
    Mr. Lightfoot. Thank you, sir.
    Chairman Babin. Fascinating questions, thank you.
    Now, I recognize the gentleman from Oklahoma, Mr. Lucas.
    Mr. Lucas. Pass, Mr. Chairman.
    Chairman Babin. Okay. All right. Let's see, you know what, 
I went to the wrong direction. I'm sorry. I apologize. The 
gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. There are so many people down there; I 
understand it completely. And I'm going to just begin by 
thanking Chairman Smith and Chairman Babin for holding this and 
also just for the shared bipartisan enthusiasm that we have for 
space.
    And, Mr. Lightfoot, I just think about following up on 
Chairman Smith's--with what you're doing with James Webb, with 
Mars, with the ISS, with the Pluto stuff which was so exciting, 
and we got a chance to visit with the heliophysics people out 
at Goddard, which is terrific, the hearings we've had on SETI, 
and especially thank you for the investments in Wallops. In 
Virginia we very much want to be part of space.
    And by the way, I'd like to suggest to Chairman Smith, if 
you can find hyperspace and find ways to overcome the distance 
problems that we have in space, that would be terrific for NASA 
to do. It's not yet in your mission but--questions: Your budget 
proposes total elimination of the $100 million for the Office 
of Education. And I understand reading the stuff that there are 
issues with strategy and outcome-related data and you need to 
rethink it. I'm concerned about the complete elimination of 
that Office of Education when everything we hear is that we 
need a lot more scientists, mathematicians, and engineers, that 
STEM education has to be the heart of education moving forward. 
So how do we reconcile this tremendous need for more 
mathematicians, scientists with eliminating this office?
    Mr. Lightfoot. Yes, sir. I think one of the things that we 
worked on was trying to--as I said earlier, try to--trying to 
integrate our education outreach a little better from the 
overall formal program. I think the important thing to remember 
is we still do a ton of education within our mission 
directorates. In aeronautics, for instance, we have the 
university innovation and challenges activity where we actually 
fund undergraduate research and graduate research to do some of 
our technical challenges. We have the STEM science activation 
activity in science is still there. We have the NASA space 
technology graduate research--research fellowships that are 
still there. There are several programs still running in the 
missions that actually--we actually engender folks to actually 
come help us solve some of the technical challenges we have. So 
that's another way that we actually invest in the STEM 
workforce for the future for us. So--and that's still in this 
budget as we go forward.
    Mr. Beyer. Our Chairman said--I'm paraphrasing--that NASA 
couldn't be the piggybank for climate change research that 
could be realistically done by other agencies. And I looked 
just at the five that are going to be eliminated, the Plankton 
Aerosol Clouds and ocean Ecosystem, Orbiting Carbon 
Observatory, the Climate Absolute Radiance and Refractivity 
Observatory, the Radiation Budget Instrument, and Deep Space 
Climate Observatory. All those are out in space. Is there 
really any other institution of the Federal Government that 
could do those?
    Mr. Lightfoot. Well, I think for us, right, the spacecraft 
that we build and the ones that we put up are all part of what 
we think we do for earth science, which is inform the decision-
makers on the risk to the planet, right? There are other 
agencies that we work complementarily with. We build the 
spacecraft for NOAA, for instance, and then we hand them over 
once they get them in orbit and get them operational. We work 
Landsat with USGS. These are missions that we do together. The 
20 remaining missions we have in the agency for earth science 
we think provide the data that NASA should be providing to the 
decision-makers going forward. So I think we have a very robust 
earth science program right now going forward and will still 
provide the data that we can provide.
    Mr. Beyer. Is the theory that these five out of the 25 are 
the least-high priority?
    Mr. Lightfoot. Yes, what we did is we did an assessment 
based on--if you look at the Earth, we kind of--I'm an 
engineer, not a scientist, right, so we took a risk management 
approach the way we looked at these missions and what we're 
going to go do, and if you look at the Earth as a system--and 
it is; it's an ecosystem that has a ton of different things 
that engage in what we do and how the Earth lives and 
operates--we took a look at that, we took--and we looked at the 
science value, where can we get the data that these missions 
were going to get, maybe not at the resolution or the degree we 
wanted, what's in the decadals, and then how are they 
performing from a performance--from a cost, schedule, and 
budget performance perspective? And that's how we came up with 
the list that we came up with.
    Mr. Beyer. Great. Thank you. In the five-year budget it's 
fascinating how completely flat it is. It's $19,092,000 all the 
way out. But you figure with inflation--I think our data said 
2.3 percent--it comes to a cumulative loss of $4.5 billion in 
purchasing power. So, you know, if you look at it just a little 
askance, it looks like the NASA budget is actually shrinking 
every year over this five-year period of time. So how do we--
how can we argue that this is a long-term budget that truly 
reflects our robust commitment to space?
    Mr. Lightfoot. Yes, the--we have concerns about the out 
years as well. The '18 budget is good for us, and we'll be 
working on--in the '19 proposal process to work the--out--the 
flat-year thing because it is--that's exact calculations we've 
had is $4.5 billion in loss of buying power over the next five 
years. So we'll work that in the next budget cycle going 
forward.
    Mr. Beyer. Well, I'm hopeful that this will be something 
bipartisan we'll be fighting for your increased budget, too, 
over these next five years. Yes, thank you.
    Mr. Chair, I yield back.
    Chairman Babin. Sir, thank you, Mr. Beyer.
    And I now recognize the gentleman from Oklahoma, Mr. 
Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Thank you, Mr. Lightfoot, for being here. And I think from 
both sides of the aisle up here, we're very grateful for your 
leadership at NASA for so many years and of course going 
through this transition and the continuity that Chairman Smith 
talked about is important. You've provided that, and we're all 
very grateful for your leadership there.
    I wanted to bring up to start some of the processes related 
to earth science. You mentioned in the budget that you went 
through a process, you started with the decadal survey and then 
the science value and finally performance. And from that you 
were able to determine that these were the missions that were 
the most important and more in keeping with the budgetary 
constraints that NASA has to adhere to.
    I think on both sides of the aisle we all want to make sure 
we know what's happening to the planet. We can disagree about 
the policies that need to be implemented from Congress, but we 
all want to know what is happening to planet Earth. Can you 
assure us, given this budget, that we're going to have the 
science and the data necessary to know what's happening to the 
planet?
    Mr. Lightfoot. Yes, we believe so. And I think the other 
thing that I haven't mentioned yet that I'll share is we have 
the next earth science decadal comes out in 2017, right? And 
we're----
    Mr. Bridenstine. Okay.
    Mr. Lightfoot. And for the one we're living to, it's 2007. 
Clearly, there's a lot of information since then, and so for 
us, it was a good opportunity to say, okay, let's see what the 
decadal says for--when it comes out, and we'll use that data 
actually to inform us in our next cycle if we need to make any 
changes on there. But I believe so in terms of how we've 
assessed where we can get all the data we need within the--
again, looking at the Earth as a system----
    Mr. Bridenstine. Right.
    Mr. Lightfoot. --and all the pieces of the system, where 
can we get the pieces of data that help us assess that, the 
Earth as a system?
    Mr. Bridenstine. Okay. Fantastic. My second question, there 
was a lot of excitement in Congress, a lot of excitement 
throughout the entire nation, I think a lot of excitement at 
NASA when you made the determination that we were going to 
study whether or not we are going to put humans on EM-1. And 
earlier, you mentioned how important it was that when the 
American public and in fact the world, when they see humans in 
space doing stunning achievements, that that inspires the next 
generation, and I think there's broad agreement here as well. 
Can you go through the process that you went through to 
determine whether or not to put humans on EM-1?
    Mr. Lightfoot. Yes, sir. We--you know, we talked to the 
Administration when they came in, and this is one of the things 
they asked us to look at. We looked at it before obviously, but 
we hadn't looked at it in a while. And what we did is we put a 
team in place to do--ask them to look at the feasibility, you 
know, could we technically do this. And the teams were--they 
were very--just like you said, very energized what they did.
    The approach we took was go back two or three years to when 
we made this--when we made the decision to not fly crew and 
look and see what things we've done that we would have to back 
up and back out of to redo because now we're going to put crew. 
That's one example of the technical pieces. We asked the 
schedule, how much extra schedule would you need and then how 
much extra budget would you need going--to do all this?
    It was a fascinating exercise just because it energized our 
teams, it provided us some insight in some areas we did not 
know people had concerns about necessarily, and so we're going 
to pull some testing forward. But at the end of the day when we 
had the discussion around this, we were going to increase the 
cost, we were going to slip the schedule a little bit, and we 
were going to accept some more technical risk than we had. And 
so it really just confirmed that the plan that we were on--that 
we had in place was actually a good one for us and the right 
one for us to go do. In the meantime, we'll go do some work on 
the heat shield for Orion. We'll probably advance an ascent 
abort test, move it forward, and some other testing that we 
found in the process.
    But it really got the teams focused on what we need to do 
to get there. And so I--it was a good exercise, and I think, 
you know, we had to deal with the--there was some 
disappointment that we're not going to go try to do this, but I 
think people recognized at the end of the day that it actually 
focused us even better to try to get there.
    Mr. Bridenstine. Thank you, Mr. Chairman. I'll yield back.
    Chairman Babin. Yes, sir. Thank you.
    And now, I'd like to recognize the gentleman from Illinois, 
Mr. Foster.
    Mr. Foster. Yes, thank you, Mr. Lightfoot. And first, I'd 
like to congratulate you in general terms on your management of 
the whole unmanned science program and, you know, this is--
you've been doing this in very trying times and have had to 
make a lot of our decisions, but I think, you know, as a--I 
guess the only Ph.D. scientist in Congress, I'm really excited 
to just think about what the James Webb Space Telescope is 
going to mean. It's--you know, people believe it's going to be 
a Hubble-like step in our understanding of the universe, and so 
I know that I am--probably almost all scientists on Earth are 
excited to see what that will reveal.
    I'm less sanguine about the goals of the manned space 
program, you know, in particular the whole concept of having 
Mars as a horizon project as you say because, you know, when I 
look back at the fraction of GDP that was associated with 
actually paying for the Apollo program and, you know, the fact 
that it was paid for basically by having, you know, more than 
80 percent marginal tax rates at the time on the wealthy, you 
know, then you have to imagine--you have to--for Congress to 
start planning that and to start preparing the public for it, 
we have to have some sort of zero-order cost estimate for that.
    And so, you know, you can imagine going to Mars with 
different strategies. The traditional low-cost one is a massive 
heavy launch vehicle, which has traditionally been the low-cost 
way of doing things. You can imagine the infrastructure 
approach that you're talking about, step-by-step, and then you 
have to deal with the challenges of the operating cost for 
these things for which we I think have pretty good data now 
from the ISS of just the order of magnitude of those. And then 
there are more speculative things like the robots-first 
approach to going to Mars, which is one I'm personally a fan 
of.
    So the question is have you gone through those exercises to 
get even a broad range of cost estimates for that? Because I 
think it's very destructive to an organization, you know, in my 
experience managing things to give a group of people orders 
that are impossible to execute. And I view going to Mars on a 
flat budget as an example of that. And so in order to make sure 
we have a consistent overall plan here, I think it would be 
very valuable to even have a very broad range of cost estimates 
for different things that tells you, among other things, how 
aggressively you should pursue new technologies if that's the 
only way you can get to a plausible budget. And so I was 
wondering, have you gone through those exercises even in rough 
terms for--if you had to write down the plan today with today's 
technology and with specific technological innovations, what 
are the rough cost estimates for our manned mission to Mars?
    Mr. Lightfoot. Yes, so we've kind of come at it from a 
different direction, so let me push on this. We've looked at 
this as what's--we're not expecting an Apollo-like injection of 
funds, right, so what we told our teams is just you need to 
assume what we call current services, which is basically our 
baseline budget that we have today plus a rate. And what we've 
talked about is--we call it the ``and'' proposition. It's not 
just the heavy lift, it's not just infrastructure, it's not 
just public-private partnerships. It's all that.
    It's also not just robotic or human; it's both, right? 
Think about it. We're on Mars today with rovers, and you know 
that all too well. And the next rover that's going in 2020 is 
actually part of our human spaceflight planning because we've 
put an instrument on there to allow us to see if we can 
actually pull oxygen out of the atmosphere.
    So what we've been doing for the past couple years is 
really integrating the science and human missions to say that 
any time we go anywhere is an opportunity for both sides, human 
or science, to actually get a benefit out of it instead of 
stovepiping the way we're thinking about that. So it's a 
sustainable process. And where we've come from is--or the way 
we've been approaching it is assume what you have today and 
then let's see where the technologies come in, where does 
private industry coming in? I mean, you see a lot of folks that 
really want--are really bringing systems into play in the 
private world.
    Our international partners, we are engaging with our 
international partners on what they can bring because we think 
going to Mars with humans is going to be--is definitely going 
to be a global effort. Is not going to be just us. We'd love to 
lead it. We want to lead it and we are leading it, but we've 
met with the international partners twice now since I've been 
in this role and looking at their niche areas to come forward 
like they did for the International Space Station.
    So that's how we've done it so far. When we bring the plan 
in in--there's a plan I think we're deliverable here in 
December--you'll see the pieces of that that come back----
    Mr. Foster. Will that include a zero-order cost estimate 
for the whole endeavor with a given target date?
    Mr. Lightfoot. Yes, we'll----
    Mr. Foster. I think that's fundamental to--you know, we 
have to plan----
    Mr. Lightfoot. Yes.
    Mr. Foster. --how to convince the public to write a great 
big check to do this. And so we need a zero-order cost 
estimate. And also, as I mentioned, it's fundamental to the 
choice of technologies you are developing.
    Mr. Lightfoot. Absolutely. And we have for those 
technologies, but it'll come in. And again, our cost estimate 
will be based--it won't be we need this. It'll be based on 
this. This is what we think we can do and when. So, I mean, 
that's what you'll see.
    Mr. Foster. Yes, and you mentioned escalation. In my 
experience managing technical projects, that's--inflation for 
technical projects was--generally ran above CBI inflation. And 
what number do you actually use internally for that?
    Mr. Lightfoot. We've been using 2.3.
    Mr. Foster. All right.
    Mr. Lightfoot. Yes.
    Mr. Foster. Okay.
    Mr. Lightfoot. But we've also I think--real quick, and I 
know we're over on time, but one thing I want to add is if you 
look at the GAO report recently on high-risk projects, we've 
actually gotten--we've actually shown improvement. We're not 
going to break our arms patting ourselves on the back here, but 
we've shown a tremendous amount of movement with our program 
project techniques and estimates that we've done and within the 
agency to actually be better at predicting the performance of 
these things going forward using a lot of lessons learned. 
We've had some--for some issues that we've had in the past, so 
I feel pretty confident that we can bring a number that we can 
stand behind.
    Mr. Foster. All right. Thank you.
    Chairman Babin. Thank you very much. I'd now like to 
recognize the gentleman from California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman.
    Thank you, Administrator, for being here.
    You know, I'm going to talk about the big A because I 
always do. There are several things that are happening today, 
and I appreciate everyone talking about space exploration, and 
I wish Congressman Perlmutter was here so he could raise up his 
bumper sticker saying 2033. And all those are great and 
laudable goals, but we are doing great things that are near-
term and can change our economy.
    You brought up the low boom supersonic demonstrator. I 
think there is probably nothing bigger that's happening right 
now for our near-term that could change our economy. And 
remember, as you know, for the last 60-plus years we've been 
flying across the country at .8 Mach, and we've been doing it a 
lot safer and economical, and we have been doing everything to 
make engines cleaner and all of that. But now, it's time to go 
faster. Let's get across the country faster. And I think the 
low boom supersonic demonstrator is that key that will get us 
there very quickly. Also, the X-57 is now moving very quickly 
into its stage of maybe changing flight over the future and 
making that a lot cleaner and maybe for the folks to get an 
airplane in their yard.
    But one of the things I wanted to bring up is the education 
budget because education to me for NASA is accomplishments. If 
you show something to that 8-year-old, that 8-year-old wants to 
be an astronaut. There is no doubt about it. If you give him a 
coloring book, they might, but if you show them something, they 
will. There's no doubt. So as I think that education is a huge 
part of what NASA does, the more accomplishments you do, the 
more you're going to get. And I think that is a good indicator 
of what the Chairman brought up of how many people we've got 
applying to be an astronaut today is just because they want to 
be involved. And also what's been happening with Hubble over 
the last couple days have been huge accomplishments. So that's 
just my advertisement for what NASA is doing, and I thank you.
    So my questions are more about aeronautics. The budget has 
changed. We think that the budget is going in a better 
direction for aeronautics, but it is still a very, very small 
part of the NASA budget, and so we're still under four percent. 
I think we're at about 3.6, somewhere in that range. Do you see 
that as a good spot? And it could be as a good spot for where 
aeronautics could be or should be. Or some of these programs 
that we could bring on board that could be funded by NASA, do 
you think that may be a little bit more money into aeronautics 
could get us there?
    Mr. Lightfoot. Yes, I think with the goals we have, New 
Aviation Horizons, for instance, that our aeronautics team has 
laid out which has so many fascinating, exciting missions in 
there, I think when you look at what we're trying to do with 
low boom, as you said, with X-57, just getting our teams back 
into the business of X-planes again has just reenergized them 
in a big way.
    And we think this budget is actually pretty good for us for 
'18. We'll look and see what kind of energy we get around low 
boom, and we'll look at future--potential future--should we 
accelerate other things, but when you want to tap into a $2.5 
trillion global economy, you know, of aviation, the U.S. needs 
to be in the middle of that, and our researchers are ready to 
go to that and I think that's what we're going to be doing. So 
I'm excited about what the guys have done from an aeronautics 
perspective. You know it just as well as I do because I know 
you meet with the guys a lot.
    And I think the energy--we talk about the energy around 
human spaceflight. The energy around having an X-plane program 
is just enormous. It doesn't get spouted as much because it's 
not human spaceflight, but when you talk to our teams, you 
know, the ones at Armstrong in particular, they've been beating 
on me for five years to get some X-planes----
    Mr. Knight. Good.
    Mr. Lightfoot. --so we finally got one, and so they're 
excited.
    Mr. Knight. And I appreciate you, you've been a good voice 
and a good leader in that aspect, and I appreciate that.
    And then the last thing I'd like to talk about is NASA as a 
whole, we've kind of looked at everything that's happening, 
whether it be James Webb, whether it be our space exploration, 
whether it be aeronautics. Do you see that as a very healthy 
position right now, in other words, from the budget standpoint? 
Because I know the Chairman of this Subcommittee and the 
Chairman of the complete Committee on Science, Space, and 
Technology will always talk about the budget and where we are, 
are we healthy moving forward, are we accomplishing the goals? 
Because now, we're into a different realm over these last few 
years where the public is doing a lot of these things. They're 
doing low-Earth orbits, they're doing things that NASA kind of 
paved the way so that they could do it, but now they're taking 
over some of the things that NASA maybe doesn't do or doesn't 
have to do. So are we healthily moving forward?
    Mr. Lightfoot. I think we've got a good balance. I think--
and I think we're doing it with a risk management process that 
allows us to understand that balance in a good way. You know, 
it's exciting to see American industry be so interested in the 
innovation that comes with that because that's what makes this 
country great, right, the American innovation that comes in. We 
can enable that, and then what we're trying to do is decide 
where that line is where we need to own it and we'd let 
industry take off. And I think we're still learning that, but I 
think we're at a good balance. I feel very comfortable with the 
balance we have right now.
    Mr. Knight. Very good. And I appreciate your leadership.
    Mr. Lightfoot. Thank you.
    Chairman Smith. Would the gentleman from California yield 
for a minute?
    Mr. Knight. I will. I don't have any time, but I will yield 
to the Chairman.
    Chairman Smith. I thought I'd point out for fun since we're 
among friends today something that not many people know about 
you, and that is that Congressman Knight has a special interest 
in space, particularly speed and space, which was indicated by 
his first question because his father set the record for speed 
that lasted, I think, for several decades----
    Mr. Knight. Still----
    Chairman Smith. --as--still----
    Mr. Knight. --50 years ago this year.
    Chairman Smith. Oh, my gosh, 50-year record and counting 
then as far as the speed of a manned aircraft. So we appreciate 
Congressman Knight being on the Committee and particularly his 
personal interest in this subject.
    And I'll yield back.
    Mr. Knight. Thank you.
    Mr. Bridenstine. [Presiding] And I would second those 
comments, Mr. Chairman. Pete Knight is a hero to many of those 
of us who fly.
    So I'd now like to recognize the gentleman from Louisiana, 
Mr. Abraham.
    Mr. Abraham. Thank you, Mr. Chairman. And let's continue 
the speed discussion and talk a little bit about hypersonics. 
Of all the things that we have to worry about for national 
security, we seem to be focused now, rightly so, on ballistic 
missiles of North Korea, Iran, those nefarious countries that 
want to do us harm evidently. But hypersonics are the weapon of 
not just the future but they're weapons of now. And I know NASA 
has some great research going on with the X-43 and other X-
planes that will become critically important for national 
security because, unfortunately at this point, we can't 
intercept a hypersonic vehicle like we can a ballistic missile. 
So if you'll expound on that a little bit as NASA's roles in 
hypersonics and national security issues, please.
    Mr. Lightfoot. Yes. I think what we do in hypersonics, 
it's--for us, the part of hypersonics we're very interested in 
and we think we have the skill set to support from a national 
perspective is kind of the fundamental research where there's 
materials, where there's guidance, navigation, and control, 
propulsion, those kinds of areas that are basic in our--kind of 
our capabilities we have. And then there's a piece of it called 
the systems analysis where you can do the analysis around all 
those as a--when they become a system. It becomes a flight 
demonstration system. So that's where NASA's strengths are in 
hypersonics. We have some facilities that are very unique, and 
we have people that operate those that clearly have the 
intellectual capacity to understand all the history there.
    So what we've done is we've partnered with DARPA and DOD in 
that area, and so what we do is we help them from just a 
fundamental research perspective, bringing the systems analysis 
in, and we think we're a part of their team. They've been very 
open to having us participate with them, and so I think that's 
where we think we bring--we bring to bear in that particular 
situation. Their job is the military side of that. Our job is 
the fundamental research.
    And the reason we're interested--I want to be real clear. 
The reason we're interested is because at some point down the 
road you could actually potentially use hypersonic technology 
for--to get to orbit, right?
    Mr. Abraham. And to explore----
    Mr. Lightfoot. Absolutely.
    Mr. Abraham. --where we can't go yet----
    Mr. Lightfoot. Yes.
    Mr. Abraham. --literally Star Trek-type technology. And you 
alluded to it a little bit with the intellect. We all in this 
room certainly understand that NASA has always employed the 
best and the brightest. What is NASA doing to continue that 
evolution of pulling those students and those young people in 
so that we can stay ahead of our competitors and near peers in 
the global security world?
    Mr. Lightfoot. I think what--well, several things. We have 
several programs I mentioned earlier that each mission 
directorate has, whether it's Science STEM activation, whether 
it's the university activities that Aeronautics is doing. Space 
Technology has graduate fellowships that they do--or research 
fellowships that they do. So that's the direct piece of it.
    The other thing that we're doing I think is really 
important is we're taking a hard look at the capabilities we 
think we should be stewards for for the nation, whether it's 
propulsion, mechanical systems, you know, guidance navigation 
control, materials. Where do we need on that and where does 
industry have that that we can go take advantage of? And so 
we've spent the last couple of years really saying these are 
the technical capabilities we should be stewards of.
    Mr. Abraham. Are you guys actively recruiting in the 
universities----
    Mr. Lightfoot. Oh, yeah.
    Mr. Abraham. --or are you waiting for the students to 
collect the 18,000 applicants for 12 slots of astronauts?
    Mr. Lightfoot. No, we are actively recruiting. We don't 
have--that is an area where we do not have a challenge. We get 
a ton of applications--and you heard 18,000 for astronauts. We 
get a lot for any engineering position that pops up. And we 
are--we--our brand does well in the universities, and so we're 
pretty successful there.
    Mr. Abraham. And we're glad it does, I assure you.
    One last question. Previously, we in this Committee have 
been told that I think maybe 80 percent of NASA's 
infrastructure is beyond design life. And I'm assuming that's 
still true considering that the budget has remained fairly 
flat. How critical is that right now?
    Mr. Lightfoot. Well, we--it's pretty critical, and what 
we've done is we've put in place a pretty extensive process to 
look at duplication and overlap in facilities and capabilities 
to make sure when we give you that number that that number is 
not a bunch of the same stuff, right? And so we've spent the 
last three years going through that and defining what the 
center role should be so that we know where to target to get 
out of some of the older infrastructure that we have, and we've 
been very successful in that so far.
    So the teams are doing a good job depending on each other. 
Instead of being nine different centers across the United 
States, we're an integrated system. And so that's what we're 
trying to do to get that down. We won't--the biggest way to get 
rid of the backlog of maintenance is to tear the old stuff down 
and build new stuff, right? And so that's the way we're looking 
at it, and we're actually being very strategic about how we go 
doing that--
    Mr. Abraham. Good.
    Mr. Lightfoot. --in terms of attacking the higher-
maintenance things first.
    Mr. Abraham. Thank you. We appreciate NASA.
    Mr. Lightfoot. Thank you.
    Mr. Abraham. I yield back.
    Mr. Bridenstine. The gentleman from Florida, Mr. Dunn, is 
recognized.
    Mr. Dunn. Thank you very much, Mr. Chairman, and thank you, 
Mr. Lightfoot, for being here.
    Let me, if I can, stay on the subjects of aeronautics, 
science, and strategy just a bit. We've had a lot of talk about 
the Deep Space Gateway. Can you elaborate a little bit on how 
that impacts the strategy for our country going forward and 
maybe discuss just a little bit for everybody how that works?
    Mr. Lightfoot. Yes. So when we talk about leaving low-Earth 
orbit, we think we need an infrastructure, kind of a backbone 
that allows us to do that. So what we've been looking at is a 
way to very affordably--not a large system that we have to 
maintain, to the earlier question. What are the--what is the 
actual minimum capability we need around the Moon to allow us 
to start testing these systems out?
    So what--we talk about a gateway, we talk about an 
infrastructure, and it's in the concept phase. We still--we're 
still working with the Administration on what that will look 
like at the end of the day. But we believe it includes a power 
propulsion unit that'll be built off of what we did for the ARM 
mission, Asteroid Retrieval Mission. We think we'll have a 
habitat. We're working right now with five different potential 
vendors on our NextSTEP BAAs to do habitat systems, habitat 
concepts. And then we'll have an airlock on there, and you'll 
be able to move this around and you can operate telerobotically 
on the Moon. You can use it as a place that you actually take 
off and go to Mars from there with a different system. It's 
almost a node if you want to call it that. So--
    Mr. Dunn. Does it impact cislunar missions as well?
    Mr. Lightfoot. Oh, yes, absolutely. It would allow us to 
move around the Moon and do multiple types of missions around 
there.
    Mr. Dunn. All right. Thank you very much. So what other 
countries are in that space besides us?
    Mr. Lightfoot. In the cislunar space?
    Mr. Dunn. Yes.
    Mr. Lightfoot. Right now, no one's there--the Chinese. I 
should say the Chinese are going to the Moon; we know that. But 
what we've been doing is we've been talking to all our 
international partners, the same ones we have on the 
International Space Station today, about where they would like 
to participate in those exploration plans as we go forward. So 
we continue to share with them what we're thinking, and they 
bring in their niche areas that would be good for them. They 
actually bring--I mean, several of them bring very good 
capabilities to us.
    And so as we look at a global effort in a resource-
constrained environment, you know, those partnerships, whether 
they're international or whether they're public-private here in 
the United States, are all for us things that we can use.
    Mr. Dunn. And last, I'd like to ask you to talk a little 
bit about the CubeSats that have become so popular, the smaller 
mission satellites and the launching clusters. And I know we're 
now assembling those on the Cape----
    Mr. Lightfoot. Right.
    Mr. Dunn. --in the center, and maybe talk to us a little 
bit about how NASA is going to be interacting in that space.
    Mr. Lightfoot. Yes, this is an exciting area I think, a 
very exciting area. As CubeSats have gotten--CubeSats and 
SmallSats have gotten--we got--we're able to control them 
better. We're able to get actual science data. We're actually 
using them for communications. It's a very interesting area. We 
have an initiative in this budget that does--a SmallSat/CubeSat 
initiative. Their science is actually going to look at a way to 
get some of the data that we've been getting with big missions. 
Can you actually get the same kind of data, close data from a 
capability perspective using CubeSats because we can launch 
them as part of another mission, right? You've seen that. We 
take them up to space station and we launch them from the space 
station out of the Japanese module.
    So we're learning more and more about that, and we're also 
getting better with the systems. I mean, the systems are 
getting smaller and smaller. It's amazing what you can do with 
these CubeSats now in terms of controlling their attitude and 
propulsive maneuvers on orbit. So that's what we--we think 
that's a big opportunity for us, and that's why it's in the 
science budget this year to--
    Mr. Dunn. And are those CubeSats, are they hardened in an 
EMP sense, are they hardening and stuff?
    Mr. Lightfoot. Oh, I don't know. I don't think we've gotten 
that far yet to think about that but--
    Mr. Dunn. That's your task.
    Mr. Lightfoot. Yes.
    Mr. Dunn. Thank you very much, Mr. Lightfoot. I enjoyed 
your testimony.
    Mr. Lightfoot. Thank you.
    Mr. Dunn. Mr. Chairman, I yield back.
    Mr. Posey. [Presiding] The Chair recognizes the gentleman 
from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    And, Administer Lightfoot, just a brief statement, not a 
question for you this morning. My district in northeast Indiana 
is one of the largest manufacturing districts in the entire 
country, building everything from RVs to military hardware. We 
have some companies as well that specifically support NASA 
programs, including the designing and building of sophisticated 
satellite payloads for national and international weather 
observations.
    One specific program important in my district is called the 
Radiation Budget Instrument. It will leapfrog current 
technology by accurately measuring the impact of the Sun's 
energy on the Earth and the Earth's own energy than the current 
generation of sensors that we currently utilize. The technology 
advances are critical to researchers to help improve longer-
term and seasonal weather forecasting, such as seasonal tornado 
and hurricane forecasts. There are many parts of the country, 
including Indiana, which will benefit from these breakthrough 
technologies.
    I understand the agency must make priority calls, but it is 
my understanding that the program is 80 percent complete, is on 
track for an on-time delivery, and has solved all major 
technical challenges. Looking forward during the budget 
process, I would like to work with you and my colleagues to 
ensure that we don't discard investments that we've already 
made in these next-generation technologies and lose the 
opportunity for greatly increased seasonal forecasting, which 
will help our emergency managers, and in our agriculture and 
energy sectors, among many others.
    So I look forward to working with you and having those 
discussions in the future. I appreciate your testimony today.
    With that, Mr. Chairman, I yield back.
    Mr. Posey. The Chair will now recognize himself for five 
minutes.
    Mr. Lightfoot, I've heard that there might be some 
challenges at KSC due to a shortfall of funding for ground 
systems. Could you comment on that for me, please?
    Mr. Lightfoot. I think ground systems is okay from a 
perspective of what they're trying to do. We have some of the 
money that normally would be in the ground systems budget is 
actually in the construction budget. When you add them 
together, it's the money they need to get the job done.
    Mr. Posey. Okay. We both know that if everything's a 
priority, then nothing's a priority, and so I'm curious about a 
roadmap to Mars and our ability to stick to that roadmap, 
subject to funding of course.
    Mr. Lightfoot. Well, I think--I mean, we have a report due 
back I think to this Committee in December 1 that's going to 
show the plan. I believe we were asked to provide a plan of 
getting to Mars by 2033. And so we're working on that, and I 
think you'll see why we think it's actually a sustainable plan 
based on the budget that we've got. So I think if you look at 
the series of missions we're planning on doing in the 2020s 
with the SLS Orion combination, the missions we're talking 
about doing with our commercial partners to actually, you know, 
provide the supplies for what we're trying to do, I think 
you'll see that there's--it's a sustainable plan and it's 
actually doable if we had--to your point, if we'll just stick 
with it.
    Mr. Posey. Okay. If you had one percent of our budget 
instead of just a half a percent or if you could have like four 
percent during Apollo or something, what would you do?
    Mr. Lightfoot. Wow. I think what--so I think the way I 
would answer that question is that you see what we do today 
with the budget that we get----
    Mr. Posey. Yes.
    Mr. Lightfoot. --right? And I think you would just see more 
contributions to the scientific discovery, the exploration, the 
pushing humans further into space. But I also recognize that 
we're part of bigger federal budget here, and I think that 
balance has to be maintained. And, you know, that's for--to me, 
that's for you guys to decide where that balance is for us.
    Could we do more? Sure, we could do more, but within the 
other constraints we have as a nation, you know, that to me 
is--I think we have a good budget for what we need to go do.
    Mr. Posey. Okay. Could you comment on the Administration's 
decision not to put crew on the first flight?
    Mr. Lightfoot. Yes, sir. I--as I said earlier, I think that 
was as much our decision as it was theirs. We worked with them 
directly on that. We just felt that the addition of the 
technical risk, the addition of the cost risk, and the addition 
of the schedule risk actually showed that our plan was--that we 
had to start with was actually probably the right one and the 
right way to go. And I think to me it was--it was a--when we 
got--when the teams brought all the information, as excited as 
we were about possibly doing it, it actually confirmed we 
should be doing what we're doing from an overall perspective.
    Mr. Posey. It hasn't been very clear in the press, but, you 
know, China has been quite active on the Moon, and I wonder if 
you'd comment on that.
    Mr. Lightfoot. Well, I think the Chinese have--you know, I 
know as much as you do from a press perspective, but you can 
see there--they've got their first piece of what would be their 
space station on orbit now. They've gone to the Moon. They're 
talking about going again. They've made some announcement this 
week about that in terms of a sample type return from the Moon. 
So they're very active.
    You know, I think, you know, for us we have to decide 
some--at some point what's going to be our interaction with 
them from an overall perspective as a Federal Government, how 
we're going to deal with them. Their--the stuff we've worked 
with them on has been mostly scientific in nature going 
forward, and I think we just should keep paying attention to 
what they're doing and make sure we're not ceding leadership 
from that perspective.
    Mr. Posey. I think that's very important. Do you see any 
militarization of the Moon by the Chinese?
    Mr. Lightfoot. I don't. That's probably for somebody else 
to answer so I haven't--not in my world.
    Mr. Posey. Do you think we're still ahead of them on 
efforts to go to the Moon again?
    Mr. Lightfoot. I think so. I think the systems that were 
put in place are--I think we are, but I don't have any insight 
into their systems as much as I do ours, so I'm pretty 
confident in our ability to do what we want to go do, and I 
think that's where we--I think we're okay from that standpoint.
    Mr. Posey. Okay. Thank you very much, Mr. Lightfoot.
    Mr. Lightfoot. Thank you.
    Mr. Posey. The Chair recognizes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Lightfoot, thank you very much for being here. This is 
fascinating conversation. I was born in 1961. I have a very 
nostalgic memory of NASA as I grew as a young lad and observed 
the Moon landing, and for my entire life I've looked forward to 
our return to space and our return to dominance in space, which 
we certainly seem to have lost that clear dominance as a nation 
as we explore beyond our planet.
    The history of NASA is replete with the smartest guys and 
women in the world, doing more with less, and I'm happy to say 
that the current budget, as requested by the President, cuts 
NASA's budget, it's the lowest of any nondefense or non-
security-related part of the executive. And because this is a 
discussion about budget and NASA and what you can do and we 
recognize that, certainly on this Committee from a bipartisan 
perspective, we recognize that if we're to be first on Earth, 
we must be first in space, and yet we must protect the people's 
Treasury.
    One of the projects that I've followed through the years 
which is a fascinating success is Cassini. In your written 
testimony you stated that after 13 years orbiting Saturn our 
Cassini spacecraft has begun a series of 22 daring dives 
through the 1,500-mile-wide gap between the planet and its 
rings as part of the mission's grand finale. That'll be in 
September of this year, 19 years from launch. This mission also 
included a lander on Titan, Saturn's largest moon, which sent 
back fascinating data. And it's important to note that the 
success of Cassini and the Titan lander was reflective of 25- 
to 30-year-old technology, 1980s and early '90s technology.
    So my question to you would be considering the fact that 
this technology and the success of Cassini is that old, is 
predigital--we should note that the iPhone was introduced in 
2004--what do you expect from Cassini's September end-of-
mission controlled crash into the surface of Saturn, and what 
might we expect from missions developed with current 
technologies as we move forward and as that relates to NASA's 
historic ability to do more with less?
    Mr. Lightfoot. Yes, I think--so I've gotten--I've been in 
this business long enough and in this agency long enough to not 
speculate on what we might see because we always get surprised 
with what we learn. If you look at the recent images from Juno 
that went around Jupiter, I mean, just stunning.
    Mr. Higgins. Right.
    Mr. Lightfoot. And that's newer technology still, you know, 
when we launch a missile, a little older, but I think what 
you'll see with Cassini is--this is why we're doing the dives. 
We want to see what's there, what's in there. We've already 
learned even from some of the initial passes. To me what's 
happened, the reason we're able to do more with less is because 
of the advances in technology, right? If you look at the 
miniaturization--like you said, your iPhone--if you look at the 
miniaturization of sensors, propulsion systems, all the things 
that are happening, you try to pack those into a spacecraft 
that's going to go make these incredible discoveries, that 
miniaturization actually helps us, right? It helps us to be 
able to build these spacecraft because they're--to get them off 
Earth is the hardest part of this, you know, getting there.
    So I think the technologies we're working on, whether 
they're new detectors, new sensors, that's what we have in our 
budget from a science standpoint and the technology standpoint. 
Both of those mission directorates are working on those kind of 
things to allow us to get that even better kind of data that we 
get. New Horizons is another great example of when it went by 
Pluto and did stuff that we got back there. So technology is a 
critical piece of this. That's why we think the Space 
Technology Mission Directorate and the technology that the 
Science Mission Directorate does is actually beats forward into 
the next mission. The starshade, for instance, that I talked 
about earlier is another technology we'd love to get on orbit 
and again be able to use those technologies to just do better 
discoveries and more discoveries.
    The thing that I've learned is every question we answer 
causes more questions, right, and that's what's so exciting 
about what we do from a science standpoint. And that technology 
helps us to actually move forward.
    Mr. Higgins. Thank you for that answer. Just briefly, could 
you address regarding the budget as it currently begins to 
manifest for NASA, what's the general morale within NASA? It 
seems to be an exciting time of rebirth. And please address 
that briefly.
    Mr. Lightfoot. Yes. You know, we're the best place to work 
in government for the last five years, and I think that 
probably says it the best. That's our workforce filling out the 
governmentwide survey. People are excited. I mean, the Chairman 
was there yesterday at Johnson. Goodness gracious, people were 
just--it's--they're excited about what we're doing, and they're 
excited because we're--if you look at the cadence of 
discoveries--we make a lot of news, right, and it's usually 
good news, you know, usually. And I think that inspires our 
teams to actually do even more. So, yes, I think the morale is 
good, very good.
    Mr. Higgins. Thank you very much. Mr. Chairman, I yield 
back.
    Chairman Babin. Thank you.
    I now recognize the gentleman from Florida, Mr. Webster.
    Mr. Webster. Thank you, Mr. Chair.
    Mr. Posey was asking about the money constraints, and you 
laid out a time frame of how you could work out a trip to Mars. 
Isn't that also constrained by timing? It seemed like we had 
testimony before about the fact that there are certain good 
times and they come around not so often.
    Mr. Lightfoot. Yes, there is a--it's a--you look at 2031, 
2033, for instance, they are very good times for us to go to 
Mars based on the orbital mechanics of where Mars is located 
and where the Earth is so----
    Mr. Perlmutter. I just like '23.
    Mr. Lightfoot. I know. I almost brought the bumper sticker, 
sir. Anyway--but I do think that there are more optimal times 
because the crew transit time, if you have crew, you want to 
take those shorter--that's why 2033 is probably one of the--I 
think it's a nine-month transit--I probably got that wrong but 
that's what we're looking at.
    Mr. Webster. You mentioned nodes, and are there ways that 
we can advantage ourselves with those nodes in other places 
like the Moon and maybe launch from there? Does that change any 
of that?
    Mr. Lightfoot. Yes, that's one reason we're looking at 
that, that kind of gateway concept that I talked about. It 
would be a place where you can actually operate down at the 
Moon if you wanted to, but you can also take whatever system 
you want to take to Mars and launch from that location.
    Mr. Webster. So wherever you get to, you're advantaged by 
the fact you're there as opposed to having everything in one 
hub, which would be the Earth.
    Mr. Lightfoot. And you go--with the way we look at it is 
you go back and forth from that node to Mars, and then you come 
from that node home with a different system so----
    Mr. Webster. Would the funding that you have proposed or 
you're going to share and the timescale and all of that, would 
that include taking stuff with you?
    Mr. Lightfoot. Taking stuff?
    Mr. Webster. Okay. So let's say it's 2033, and you're 
saying if you were to launch from there, from that node, isn't 
your plan not only to get there but also take things that would 
facilitate a future launch maybe from there?
    Mr. Lightfoot. Yes, that's the goal, right, would be to set 
that infrastructure up so that you can go do that. But we're 
also looking at ways that we can live off the land when we get 
there. It's called in situ resource utilization. Today on the 
International Space Station we process all that moisture into 
water that these guys can drink so I don't have to carry it. 
Water is pretty heavy. I don't have to take it with me.
    We've also been doing 3-D printing in space. We have a 3-D 
printer on the International Space Station that we're thinking 
is kind of a precursor to what you might take with you when you 
go. And if something breaks----
    Mr. Webster. Can you manufacture things there?
    Mr. Lightfoot. You can do your part--we're doing parts 
today on station using the powders that we've got. So it's 
pretty exciting from that standpoint. That's the kind of way 
we're looking at it, so it's going to be a combination of what 
do we need to take but what can we also have with us?
    Mr. Webster. And I guess that advances as technology moves 
forward?
    Mr. Lightfoot. Oh, yes. Oh, yes.
    Mr. Webster. Great. I yield back. Thank you.
    Chairman Babin. Thank you so much. That's fascinating.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Mr. Lightfoot, as always, it was music to 
my ears to hear about 2031, '32, '33. So let's just remember we 
can do this and we will do this. And I know that a lot of the 
morale is high because you really are beginning to, you know, 
really expand your reach and go farther and put all that talent 
that you have within NASA really to work on so many different, 
you know, exciting projects. So thank you for that.
    So how are we doing budgetarily in terms of putting the 
pieces together to get us to Mars by 2033?
    Mr. Lightfoot. Yes. I think the '18 budget that we've 
proposed here actually keeps the progress going----
    Mr. Perlmutter. Okay.
    Mr. Lightfoot. --on what we need to do to do that. For us, 
the process is pretty simple. It's use the International Space 
Station to the maximum extent possible to develop those 
systems. That really is our jumping-off point. We're putting 
systems up there now. We've got Bigelow up there that, you 
know, is an expandable module. We have technologies we're 
taking up there constantly that we think will be used for 
future parts of this. And then we're doing the human research 
that we need to understand what happens to the human body, 
right? So we just--the data coming back from that is going to 
actually help us with--as we take these longer missions to 
Mars.
    And then we think we--then, we're going to establish some 
infrastructure around the Moon in cislunar space, and then that 
will be our jumping off point as we start going to Mars. So 
that--this--the '18 budget continues those systems. We think 
we're pretty confident in that.
    Mr. Perlmutter. Good. Are you working with outside 
companies, with other nations? How's that going?
    Mr. Lightfoot. Yes. We--so let's start with--we think 
there's a lot of opportunity for public-private partnerships. 
We do--we've seen a great deal of interest from a lot of the 
industry in this country and how they want to participate and 
where they're going to bring things to bear for us. So that's 
been very positive, kind of building off what we do with 
commercial cargo and commercial crew, right----
    Mr. Perlmutter. Good.
    Mr. Lightfoot. --using that model. The other piece is the 
international piece. We've had several--as mentioned earlier, 
I've had a couple of heads-of-agency meetings with my 
counterparts internationally. Mostly the ones that we deal with 
on the International Space Station, they're very interested in 
participating with us on this journey. It's going to be a 
global journey; we know that. And I think--because when we get 
there, that's going to be a civilization-level impact, right, 
just like when we landed on the Moon. And I think that's the--
to me, that's going to be a we did it, we as a globe, you know, 
not just the United States, not just NASA. And I think that's 
what we're going to have to do. But we've got a ton of interest 
from them as well.
    Mr. Perlmutter. All right. So let me switch to a couple 
smaller programs that are particularly important to Colorado. 
NEOCam, something that we had talked about earlier that--I was 
looking for it in the budget but I'm not sure that I saw it in 
there. Can you tell us about NEOCam and where you are?
    Mr. Lightfoot. Yes, so we--NEOCam was part of a recent set 
of selections, and what we decided to do was we were interested 
in the technology associated with NEOCam. It went a little bit 
further than we thought we needed from a planetary defense 
perspective, so we've asked them to go back and say, okay, if 
you--just as a planetary defense satellite, could you do this? 
We continue to identify the potential hazards, asteroids, you 
know, in this--that we're required to go do.
    We think NEOCam is a tool we could actually bring to bear, 
but it had a science piece in it that we really wanted to go 
back to use the planetary defense from a focus standpoint. So 
we've kept the guys going to develop that technology, come 
back, and we expect to hear--I think in about a year they're 
coming back from a formulation perspective to tell us where 
they are. And it can be a tool that gets added to our tool 
chest because we think there's also other ways to do it may be 
with a SmallSat, something like that to get the same data.
    Mr. Perlmutter. Okay. And then--I mean, so it'll fall in 
the planetary defense category, but even at some point maybe we 
put some science money into it, too, if that were----
    Mr. Lightfoot. Well, the planetary defense budget is in 
science so that's good.
    Mr. Perlmutter. But, I mean, you've got certain categories 
that fit nicely in that one so let's just make sure we keep 
pursuing that.
    The last one--last question I have is on CLARREO, which 
University of Colorado is very interested in. And I think it 
was taken out of the budget. Can you explain that, please?
    Mr. Lightfoot. Yes, the CLARREO Pathfinder mission----
    Mr. Perlmutter. Yes.
    Mr. Lightfoot. --which was going to fly on the 
International Space Station, that was some precursor work we 
were doing associated with a bigger CLARREO mission. The 
CLARREO mission--the bigger mission estimated out about $1 
billion overall. So what we wanted to do was we wanted to wait 
until the decadal was done. There's a decadal in 2017 for 
science to see where--while that ranked--while the bigger 
mission--not the Pathfinder mission but the bigger mission 
ranked on the 2007 decadal, we wanted to see what would happen 
on the 2017 decadal, and so that's why we did what we did. That 
was choice we made before we made that next big investment.
    Mr. Perlmutter. So we'll know over the course of next year?
    Mr. Lightfoot. Yes, well, we're canceling Pathfinder. We've 
proposed to terminate Pathfinder.
    Mr. Perlmutter. Okay.
    Mr. Lightfoot. And what we'll do is when the next decadal 
will come out, we'll see where those particular science 
objectives--where they rate and relook at the whole portfolio 
from earth science.
    Mr. Perlmutter. All right. Thank you for your testimony and 
thank you for your service.
    Mr. Lightfoot. Thank you.
    Chairman Babin. Thank you.
    And now I recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
apologize, going back and forth between hearings, so if I ask a 
repetitive question, I apologize.
    We just heard that we are spending money for the tracking 
and characterization of near-Earth objects. Is there anything 
in place if we do discover a near-Earth object heading towards 
us, do we have a procedure in place that would then be 
activated in order to some way deflect that near-Earth object 
if it threatens the planet?
    Mr. Lightfoot. We don't have anything that we're building 
to deflect it at this point. We've got a defense coordination 
office, you know, that does all the notifications to everyone 
if we see something coming, but I don't--I mean, we'd have to 
see what we would do after--at that point. We're not building 
anything related to that.
    Mr. Rohrabacher. Okay. I would suggest, Mr. Chairman, one 
of the things we need to do is to insist that we actually 
have--if a near-Earth object is spotted coming to the Earth, 
could kill millions of people, if not even worse--that we 
should demand someone, whether it's NASA or whoever, to 
actually have a system where you say punch the red button, it's 
time to go on this particular emergency. We need to do that.
    Now, let me ask you about space debris. We know that we've 
got--there's lots of examples. I mean, the debris shield, was 
it last March it had floated away from the space station. It 
was a debris shield, so we know that debris is actually causing 
some problems already. We know the space shuttle was postponed 
a couple times for space debris accumulation. Do we have 
anything in place where we have planned that will in some way 
deal with that problem meaning to remove space debris?
    Mr. Lightfoot. Yes, this--so obviously, micrometeorite 
debris and other debris up there is actually our number-one 
risk for our human spaceflight mission in terms of----
    Mr. Rohrabacher. Right.
    Mr. Lightfoot. --the area where they are. And we--so we 
track it. We have a great system for tracking it, as you would 
say.
    Mr. Rohrabacher. Right. All right. But----
    Mr. Lightfoot. But what we've been working on in the agency 
is simply--we haven't worked on these systems to get removed; 
we've been working on some of the technologies that might be 
able to do it, but it's a very low-level effort. I don't want 
to imply that it's a big effort----
    Mr. Rohrabacher. Yeah.
    Mr. Lightfoot. --but that's what we've been doing.
    Mr. Rohrabacher. I would suggest that it threatens the 
viability of our entire system. By the way, what is the--going 
to be the cost of the SLS rocket in the--per rocket?
    Mr. Lightfoot. Let me get back to you on that number. We 
just--only because we just finished an activity that they're 
briefing me on next month.
    Mr. Rohrabacher. Is it going to be over $1 billion or----
    Mr. Lightfoot. I haven't seen the number, sir, honestly 
so----
    Mr. Rohrabacher. All right. Okay. Well, let me just note 
that my guess, if we're spending several billion dollars a year 
now, that these rockets are going to be phenomenally expensive. 
I would hate to think of a little bit of space debris coming 
along and negating $2-3 billion worth of spending on an SLS 
rocket. So whether it's planetary defense, we ought to have a 
system in place. We ought to get serious about space debris 
before space debris starts hemming us in so much that it's put 
costly restrictions on our own space program. And I would think 
that this should be an international effort. And have we had 
any type of international meetings on space debris?
    Mr. Lightfoot. I think there's several things in place that 
we're required to do like de-orbiting second stages and things 
like that that are discussed internationally.
    Mr. Rohrabacher. But we haven't had a--some sort of a major 
meeting where people get together and say what can we do to 
clear space debris as an international effort?
    Mr. Lightfoot. And--not that I know of unless we've done 
something through the UN COPUOS stuff. I'd have to----
    Mr. Rohrabacher. All right.
    Mr. Lightfoot. But I'll get back with you on that one. I'll 
certainly take that one----
    Mr. Rohrabacher. All right.
    Mr. Lightfoot. --for the record and let you know.
    Mr. Rohrabacher. All right. And finally, let me just note 
about earth science. There are so many other people that can 
analyze what's going on in the Earth. I don't see any reason 
why we should--I love the Hubble telescopes and the various 
things that are aimed outward, but I have no reason to believe 
that people in NASA have any more expertise at trying to study 
what the Earth is about. They're supposed to be out studying 
what the universe is about, and I would think that we should, 
Mr. Chairman, move away from funding of earth science missions 
and start focusing on the real mission of NASA, which is the 
missions we are aiming into space.
    Thank you very much, Mr. Chairman.
    Chairman Babin. Thank you for that line of questioning.
    Mr. Veasey, the gentleman from Texas, I call on you.
    Mr. Veasey. Thank you. Thank you very much.
    And I wanted to ask a question about human space 
exploration. And under the funding level proposed for 
exploration habitation systems, when could NASA expect to have 
a habitation system operational for use on an exploration 
mission? And what will that habitat actually be used for?
    Mr. Lightfoot. Yes, so I think the way we're looking at now 
we've got a process in place called our NextSTEP BAAs that are 
looking at what habitation systems could be available for us 
from some--we've got five people that are--five different 
companies that are working that with us. The habitation model--
module based on our current plans, you know, would fly roughly 
in the middle of the 2020s. It would be located somewhere 
around--or in the vicinity of the Moon so that we could 
actually use that area there going forward. It would have the 
systems in it. We would help outfit it with the systems that we 
would need for a longer-term journey so we can test the systems 
out there as well. So that's what we're looking at.
    Mr. Veasey. Okay. As far as the CASIS key accomplishments 
for this year regarding broadening the use of the ISS national 
laboratory, can you just go over some of the--what you think 
some of the key accomplishments are?
    Mr. Lightfoot. Well, I think CASIS has done a great job in 
terms of bringing some of the critical research, whether it's 
rodent research, you know, that we do to understand the effects 
of medications or space travel on rodents that I--the CASIS 
team has done a great job working with researchers there. 
They've been bringing different CubeSats up, different things 
that they're working on to give us more scientific data when we 
actually deploy from the International Space Station. They're 
just--they're continuing to really develop that market if you 
want to call it that, the people that can actually come up 
there, whether it's scientific research, medical research, or 
just the other deploying of CubeSats from the station. So 
they've done a really good job as a partner for us on that.
    Mr. Veasey. Oh, good. Good. What about progresses you think 
NASA has made in just helping, you know, retire and mitigate 
some key risks that are associated with human exploration in 
deep space?
    Mr. Lightfoot. Yes, I think the--to me that--those key 
risks kind of fall in two categories as the risk on the human 
and it's the risk on the systems that we need. So we're 
continuing to work in our Space Technology Mission Directorate 
on some of those key technologies, whether it's entry, descent, 
and landing, whether it's radiation protection, those kind of 
activities. On the station itself, we're utilizing the systems 
that we have. If you think we did--Scott Kelly did the one-year 
mission, right, to understand the impacts of somebody being on 
the station for year as opposed to six months. So we've got a 
list of human research, things that we would like to do on the 
International Space Station before we start pushing out 
further, and we've got some technical things with life-support 
systems, radiation protection that we're working on. And we 
continue to work on those, and they're supported in this 
budget.
    Mr. Veasey. How do you think adding the fourth member 
aboard ISS will help mitigate some of those risks?
    Mr. Lightfoot. I'm super excited about that because we 
get--by having four members doing the research that we do, we 
expect to really increase the production, you know, because 
operating station takes some of their time. Now, we'll have 
somebody that can really be focused on the research. And we've 
got lots of research up there. Because of the resiliency of our 
transportation systems now with the commercial cargo guys, 
we're getting a lot of research up there for these guys to do. 
And so having an extra crewmember will be outstanding for that.
    Mr. Veasey. Do you think that NASA is confident that all of 
human exploration health risks will be retired before the ISS 
is decommissioned in 2024?
    Mr. Lightfoot. Well, all is a big word. I don't know if 
we'll ever have all our risks retired on anything we're doing. 
I think we will--the way we look at risk is we manage it. From 
a perspective of the critical ones, I think we will have--I 
don't think we'll have the critical risks retired, but we'll 
know what we need to do when we're in cislunar space to 
mitigate those risks going forward.
    Mr. Veasey. Okay. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Babin. Yes, sir. Thank you very much.
    And I want to ask one quick question here, Mr. Lightfoot. 
Should NASA be responsible for regulating private sector 
planetary protection standards? What would you say about that?
    Mr. Lightfoot. I think we would like to be engaged in a 
conversation. I think we have some expertise that we can bring 
to bear there. I don't see us so much as a regulatory agency as 
one that should be consulted is the way I look at it.
    Chairman Babin. Yes. So that's kind of a yes?
    Mr. Lightfoot. Yes. Yes, I think as long as we're--we would 
love to play a consulting role in that particular activity.
    Chairman Babin. Okay. All right. Thank you very much.
    I want to thank the witness today for his testimony, very 
valuable, very interesting, and thank the members for their 
very insightful and interesting questions as well.
    The record will remain open for two weeks for additional 
comments and written questions from Members who may want to ask 
something additional.
    So with that, this hearing is adjourned.
    Mr. Lightfoot. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir.
    [Whereupon, at 11:42 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
</pre></body></html>
